U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

September 17, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Robert S. Carlborg v. Department of the Navy
S.Ct. No. 21-266
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 20,
2021, and placed on the docket on August 24, 2021. The government’s response is due on
September 23, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 25, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

21-0266
CARLBORG, ROBERT S.
DEPARTMENT OF THE NAVY

CHARLES WILLIAM GITTINS
139 MALLARD DRIVE
LAKE FREDERICK, VA 22630
540-327-2208
CGITTINS@AOL.COM

